Case: 19-10882

Document: Q0515586486

Page: 18

Date Filed: 10/01/2020

A ppeA()«y A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10882

FILED
August 11, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee

v.

CASEY ROSE,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDCNo. 3:18-CV-685
USDC No. 3:14-CR-367-26
Before JONES, STEWART, and COSTA, Circuit Judges.
PER CURIAM:*
Following a jury trial, Casey Rose, federal prisoner # 48743-177, was
convicted of drug-trafficking, conspiracy to commit drug-trafficking, and
possession of a firearm by a felon and was sentenced to life imprisonment. The
district court denied his 28 U.S.C. § 2255 motion in part on procedural grounds
and in part on the merits without holding an evidentiary hearing. Rose now
seeks a certificate of appealability (COA).

Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

Case: 19-10882

Document: Q0515586486

Page: 19

Date Filed: 10/01/2020

No. .19-10882
If his COA brief is liberally construed, Rose renews his claims that his
Sixth Amendment right of confrontation was violated when his crossexamination of Government witness Brandon Crow was terminated, that
appellate counsel was ineffective in failing to raise the claim, that his trial
attorneys were ineffective in failing to investigate his mental health and
request a competency hearing, and that the trial court erred in failing to
conduct a competency hearing sua sponte. He additionally argues that the
district court should have held an evidentiary hearing on his incompetency
claims. However, Rose briefs no argument renewing his claims that his due
process rights were violated when he was prevented from pointing out
discrepancies in his videotaped confession and when the Government failed to
correct perjured testimony or that trial counsel was ineffective in failing to
investigate possible defenses or in acting as standby counsel. Those claims are
therefore abandoned. See Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir.
1999); see also Yohey v. Collins, 985 F.2d 222, 225 (5th Cir. 1993).
This court will grant a COA, which is required to appeal, only when the
movant “has made a substantial showing of the denial of a, constitutional
right.” 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
To make that showing, Rose must establish that reasonable jurists would find
the decision to deny relief debatable or wrong, see Slack v. McDaniel, 529 U.S.
473, 484 (2000), or that the issue he presents deserves encouragement to
proceed further, see Miller-El, 537 U.S. at 327.
Rose has not made the requisite showing. See Miller-El, 537 U.S. at 327;
Slack, 529 U.S. at 484. His motion for a COA is therefore denied. We construe
the motion for a COA with respect to the district court’s failure to hold an
evidentiary hearing as a direct appeal of that issue, see Norman v. Stephens,
817 F.3d 226, 234 (5th Cir.. 2016), and affirm.
COA DENIED; AFFIRMED.
2

Case 3:18-cv-00685-B-BK Document 16 Filed 06/07/19

Page 1 of 2 PagelD 110

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CASEY ROSE, # 48743477
Movant,

§
§
§

v.

§
§

UNITED STATES OF AMERICA
Respondent.

§
§

Civil No. 3:18-CV-685'B'BK
(Criminal No. 3:14-CR-367-B-26)

ORDER ACCEPTING FINDINGS, CONCLUSIONS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE TUDGE, AND
DENYING A CERTIFICATE OF APPEALABILITY

The United States Magistrate Judge made findings, conclusions, and a recommendation in
this case. Movant filed objections, and the Court has made a de novo review of those portions of the
proposed findings and recommendation to which objection was made. The objections are overruled,
and the Court accepts the Findings, Conclusions and Recommendation of the United States
Magistrate Judge.
IT IS THEREFORE ORDERED that the motion to vacate, set aside, or correct sentence
under 28 U.S.C. § 2255 is denied.
Considering the record in this case and pursuant to Federal Rule of Appellate Procedure 22(b),
Rule 11 (a) of the Rules Governing Sections 2254 and 2255 Proceedings in the United States District
Court, and 28 U.S.C. § 2253(c), the Court denies a certificate of appealability. The Court adopts
and incorporates by reference the Magistrate Judge’s Findings, Conclusions and Recommendation
filed in this case in support of its finding that the petitioner has failed to show (1) that reasonable
jurists would find this Court’s “assessment of the constitutional claims debatable or wrong,” or (2)
1

Case 3:18-cv-00685-B-BK Document 16 Filed 06/07/19

Page"2of2 PagelD 111

that reasonable jurists would find “it debatable whether the petition states a valid claim of the denial
of a constitutional right” and “debatable whether [this Court] was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
If petitioner files a notice of appeal,
( ) petitioner may proceed in forma pauperis on appeal.
(X) petitioner must pay the $505.00 appellate filing fee or submit a motion to proceed in
forma pauperis.
SO ORDERED this 7th day of June, 2019.

JANjE J. BOYl^s
^
UMTED STATES DISTRICT JUDGE

Rule 11 of the Rules Governing §§ 2254 and 2255 Proceedings reads as follows:
(a) Certificate of Appealability. The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Before entering the
final order, the court may direct the parties to submit arguments on whether a certificate
should issue. If the court issues a certificate, the court must state the specific issue or
issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2). If the court denies a
certificate, the parties may not appeal the denial but may seek a certificate from the court
of appeals under Federal Rule of Appellate Procedure 22. A motion to reconsider a denial
does not extend the time to appeal.
(b) Time to
Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to appeal an order
entered under these rules. A timely notice of appeal must be filed even if the district
court issues a certificate of appealability.
2

Case 3:18-cv-00685-B-BK Document 17 Filed 06/07/19

Page 1 of 1 PagelD 112

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

CASEY ROSE, # 48743477
Movant,

§
§
§ '

v.

§
§

UNITED STATES OF AMERICA
Respondent.

§
§

Civil No. 3:18'CV-685'B-BK
(Criminal No. 3:14'CR-367'B-26)

TUDGMENT
The Court has entered its Order Accepting the Findings, Conclusions, and Recommendation
of the United States Magistrate Judge in this case. It is therefore ORDERED, ADJUDGED AND
DECREED that the motion to vacate, set aside, or correct sentence under 28 U.S.C. § 2255 is
denied.
The Clerk of the Court is directed to close this case.
SO ORDERED this 7th day of June, 2019.
s

JANf j. boy:
UMTED STATES DISTRICT JUDGE

J

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 1 of 12 PagelD 67

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CASEY ROSE, # 48743-177,
Movant,

§
§
§
§
§
§
§

v.
UNITED STATES OF AMERICA
Respondent.

Civil No. 3:18-CV-685-B-BK
(Criminal No. 3:14-CR-367-B-26)

FINDINGS, CONCLUSIONS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Pursuant to 28 U.S.C. § 636(b) and Special Order 3, Casey Rose’s motion to vacate, set
aside, or correct sentence under 28 U.S.C. § 2255 was referred to the undersigned United States
magistrate judge for pretrial management, including findings of fact and a recommended
disposition. As detailed herein, the motion should be DENIED, and this case should be
DISMISSED WITH PREJUDICE.
I. BACKGROUND
On May 5, 2016, a jury convicted Rose of conspiracy to possess with intent to distribute
a controlled substance, in violation of 21 U.S.C. §§ 846, 841(a)(1) & (b)(1)(A), possession of a
controlled substance with intent to distribute, in violation of 21 U.S.C. §§ 841(a)(1) &
(b)(1)(C), and possession of a firearm by a felon, in violation of 18 U.S.C. §§ 922(g)(1) and
924(a)(2). Crim. Doc. 1169. On May 5, 2016, Rose was sentenced to life imprisonment. Id. at
2320. On April 4, 2017, the Court of Appeals for the Fifth Circuit affirmed Rose’s conviction
and sentence. See United States v. Rose, 684 F. App’x 403 (5th Cir. 2017).
Rose timely filed the instant section 2255 motion on March 19, 2018. Doc. 1. He
asserts:

1

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 2 of 12 PagelD 68

1. The Court denied his rights under the Confrontation Clause.
2. Appellate counsel was ineffective for failing to raise the Confrontation Clause
issue on appeal.
3. The Government committed misconduct by not correcting perjured testimony of
one of its witnesses.
4. Each of his trial court attorneys was ineffective for failing to request a mental
competency examination.
5. Sentencing counsel was ineffective for failing to raise Rose’s “history of extreme
mental health problems and that he was heavily medicated during pre-trial, trial,
and sentencing.”
6. The Court violated his due process rights by allowing him to “proceed under the
influence of heavy psychiatric medication during pre-trial, trial, and sentencing”
and his “competency was not addressed.”
Doc. 1 at 14-22. The Government filed a response in opposition, Doc. 7, to which Rose filed a
reply, Doc. 10.
II. ANALYSIS
After conviction and exhaustion or waiver of the right to direct appeal, the Court
presumes that a petitioner stands fairly and finally convicted. See United States v. Cervantes,
132 F.3d 1106, 1109 (5th Cir. 1998) (citing United States v. Shaid, 937 F.2d 228, 231-32 (5th
Cir. 1991) (en banc)). Under section 2255, a petitioner can collaterally challenge his
conviction “only on issues of constitutional or jurisdictional magnitude.” United States v.
Willis, 273 F.3d 592, 595 (5th Cir. 2001).
A. Claim 1 is Unexhausted and Procedurally-Barred
Rose asserts that the Court violated his constitutional rights under the Confrontation
Clause by limiting his cross-examination of prosecution witness Brandon Crow, and by not

2

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 3 of 12 PagelD 69

allowing Rose “to show the discrepancies in the [confession] video to the jury.” Doc. 1 at
14-15, 19. Rose did not raise either of these issues in his direct appeal, however.
On direct appeal, he only argued that “the district court violated his Sixth Amendment
rights when it denied his motion to substitute counsel and allowed him to proceed pro se,” and
“that the district court violated his due process rights and denied him the right to present a
defense when it denied his pretrial motion for a continuance to conduct legal research.” Rose,
684 F. App’x at 404. Thus both claims are procedurally defaulted, absent a showing of cause
and prejudice. See United States v. Kallestad, 236 F. 3d 225, 227 (5th Cir. 2000) (stating “a
section 2255 movant who fails to raise a constitutional or jurisdictional issue on direct appeal
waives the issue for a collateral attack on his conviction, unless there is cause for the default and
prejudice as a result.”); see also United States v. Logan, 135 F.3d 353, 355 (5th Cir. 1998)
(iciting United States v. Frady, 456 U.S. 152, 168 (1982)). Rose has not satisfied the cause-andprejudice exception to excuse his failure to raise these claims on direct appeal.
Rose makes no attempt to demonstrate cause and prejudice as to his confession-video
claim. Regarding witness Crow, Rose asserts his appellate counsel rendered ineffective
assistance by failing to raise on appeal the Court’s denial of his right to “completely crossexamine” prosecution witness Crow. Doc. 1 at 15. Rose’s ineffective assistance argument is
unavailing.
To establish ineffective assistance of counsel, a petitioner must show that counsel’s
performance was deficient and that the deficient performance prejudiced the defense.
Strickland, 466 U.S. at 687. To establish deficient performance, a petitioner must show that his
attorney’s actions “fell below an objective standard of reasonableness.” Id. at 689. Moreover,
“[t]he Constitution does not require appellate counsel to raise every nonffivolous ground that

3

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 4 of 12 PagelD 70

might be pressed on appeal.” Ellis v. Lynaugh, 873 F.2d 830, 840 (5th Cir. 1989) (citing Jones
v. Barnes, 463 U.S. 745, 751-53 (1983)). Counsel has a professional duty to choose among
potential issues, according to his judgment as to their merit and his tactical approach to
maximize the likelihood of success on appeal. Jones, 463 U.S. at 752. Thus, in order to prove
ineffective assistance of appellate counsel, a movant must show that the decision not to raise an
issue on appeal was objectively unreasonable. United States v. Conley, 349 F.3d 837, 841 (5th
Cir. 2003) (citing Strickland, 466 U.S. at 687).
Here, Rose cannot demonstrate that his appellate attorney was ineffective for failing to
raise on appeal a Confrontation Clause argument regarding witness Crow, as such argument
would have been clearly frivolous. Indeed, the record reveals that Rose was permitted to crossexamine Crow extensively. See Crim. Doc. 2546 at 48-60. However, the Court warned Rose
of his inappropriate and irrelevant questioning after Rose asked Crow if he “had to go get a
penicillin shot” after spending time with women known as “Pleasant Grove Hood Rats.” Crim.
Doc. 2546 at 56. The Court admonished: “I’ve talked to you about affronting the dignity of
these proceedings, the jury and everyone else. That’s disgusting. And if you continue that,
you’re going to be finished with your questions.” Crim. Doc. 2546 at 56. It was only after
Rose subsequently asked Crow if Crow beat up his girlfriend that the Court halted the crossexamination. Crim. Doc. 2546 at 60.
“[Tjrial judges retain wide latitude insofar as the Confrontation Clause is concerned to
impose reasonable limits on such cross-examination based on concerns about, among other
things, harassment, prejudice, confusion of the issues, the witness’ safety, or interrogation that
is repetitive or only marginally relevant.” Delaware v. Van Arsdall, 475 U.S. 673, 679. Here,

4

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 5 of 12 PagelD 71

the Court placed a reasonable limit on Rose’s cross-examination after the Court first warned
Rose regarding his inappropriate questioning of Crow.
Under these facts, Rose has failed to show that by not raising the Confrontation Clause
issue on appeal, counsel “failed to perform according to reasonable professional standards
which resulted in prejudice to his appeal.” United States v. Merida, 985 F.2d 198, 202 (5th Cir.
1993). He has likewise failed to show that his appellate counsel’s decision not to raise this
issue was objectively unreasonable. See Conley, 349 F.3d at 841 (5th Cir. 2003). Additionally,
Rose fails to demonstrate that the Confrontation Clause issue he desired counsel to present on
appeal was clearly stronger than the issues counsel did argue on direct appeal. See Smith v.
Robbins, 528 U.S. 259, 288 (2000) (“[gjenerally, only when ignored issues are clearly stronger
than those presented, will the presumption of effective assistance of counsel be overcome”)
(citation omitted).
Rose also appears to argue that counsel simply filed an Anders brief and failed to raise
any arguments on appeal. See Doc. 1 at 15. This is factually incorrect. Appellate counsel
raised the above-noted substantive issues on appeal. See Brief of the Defendant-Appellant,
Casey Rose, Rose, 684 F. App’x 403, 2016 WL 5878748 at *2.
Finally, Rose has not demonstrated that he is actually innocent. Actual innocence may
provide “a gateway through which a petitioner may pass whether the impediment is a
procedural bar . . . or ... expiration of the statute of limitations.” McQuiggin v. Perkins, 569
U.S. 383, 386 (2013) (citing Schlup v. Delo, 513 U.S. 298 (1995); House v. Bell, 547 U.S. 518
(2006)). However, “tenable actual-innocence gateway pleas are rare.” Perkins, 569 U.S. at
386. To meet the threshold requirement, a petitioner must present new evidence in support of
his claim and “‘show that it is more likely than not that no reasonable juror would have

5

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 6 of 12 PagelD 72

convicted him in the light of the new evidence.’” Id. (quoting Schlup v. Delo, 513 U.S. 298,
329 (1995)); see also House, 547 U.S. at 538 (emphasizing that the Schlup standard is
‘demanding” and seldom met). Rose offers no evidence that would undermine this Court’s
confidence regarding the finding of guilt by the jury at trial. Accordingly, Rose’s claims that
the Court violated his right to confrontation by limiting his cross-examination of witness Crow,
and by not allowing him “to show the discrepancies in the [confession] video to the jury” are
procedurally barred.
B. Claim 3 is also Unexhausted and Procedurally-Barred
Rose asserts that the Government violated his right to due process by not correcting
perjured testimony of witnesses Crow and “the Dallas Police Officer.” See Doc. 1 at 22. Rose
failed to raise either of these issues on direct appeal. See Rose, 684 F. App ’x at 404. And he
makes no attempt to show cause and prejudice for the failure, or that he is “actually innocent.”
Therefore, these claims are also procedurally defaulted. See Kallestad, 236 F. 3d at 227; see
also Logan, 135 F.3d at 355 (citing Frady, 456 U.S. at 168). Even if the claims were not
procedurally defaulted, Rose could not prevail, however.
It is a violation of due process for the government to knowingly use, or fail to correct,
false testimony. SeeGigliov. United States, 405 U.S. 150, 153 (1972). To demonstrate this
due process violation, a movant “must establish that (1) [the witness] testified falsely; (2) the
government knew the testimony was false; and (3) the testimony was material.” United States
v. Mason, 293 F.3d 826, 828 (5th Cir. 2002) (citing Giglio, 405 U.S. at 153-54). Rose’s claims
- that the Government presented, or failed to correct, perjured testimony from Crow and a
Dallas Police officer - are conclusory, and Rose does not point to any evidence in the record in

6

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 7 of 12 PagelD 73

support. See Doc. 1 at 22. Thus, his bald allegations wholly fail to establish the
requirements to demonstrate a due process violation. See Mason, 293 F.3d at 828.
II. REMAINING CLAIMS
A. Ineffective Assistance of Counsel
Rose asserts that each of the attorneys who represented him before this Court provided
ineffective assistance because they failed to alert the Court to Rose’s mental health issues or
request a competency hearing. Specifically, Rose claims Attorney Robin McCarty failed to
have Rose “evaluated as to his competency to stand trial, or inform[] the court of the need to
have [Rose] evaluated,” and failed to have Rose evaluated “to determine if [he] could represent
himself’ due to the medications Rose was taking during the trial process. Doc. 1 at 16, 17.
Rose also contends Attorney Scott Anderson “ignored the fact that [Rose] needed to be
evaluated to determine if he was competent to stand trial, or competent to represent himself.”
Id. at 17. Similarly, Rose claims Attorney Joseph Padian provided ineffective assistance at the
sentencing stage because he failed to inform the Court that Rose “had a history of extreme
mental health problems and was heavily medicated during pre-trial, trial and sentencing.” Doc.
1 at 16.
“[A] criminal defense attorney has a duty to investigate a client’s medical history when
it becomes clear that the client is suffering from mental difficulties rendering him insane or
incompetent to stand trial.” Miller v. Drekte, 420 F.3d 356, 364 (5th Cir. 2005). Here, the only
evidence Rose offers in support of his claims, are copies of medication administration records
from August and September 2015. Doc. 1 at 23-26. These documents do not demonstrate that
Rose’s attorneys were ineffective. Nothing in the medication records Rose provided
demonstrates that he was suffering from mental difficulties so sever as to render him insane or

7

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 8 of 12 PagelD 74

incompetent to stand trial, as they merely list the medications and the date and time the
medications were administered. See Doc. 1 at 23-25. Rose asserts he started taking the
“psychiatric medication” Doxapin and Wellbutrin in 2000 and started taking it again in
“approximately May 2015.” Id. at 18. Even assuming that Rose was taking the medication for
mental health issues, that alone does not establish that counsel had a legal duty to act, as “[n]ot
all people who have a mental problem are rendered by it legally incompetent.” Bouchillon v.
Collins, 907 F.2d 589, 593 (5th Cir. 1990).
Apart from the medication records, Rose offers nothing in the record to demonstrate he
was incompetent to stand trial or that such fact should have been clear to counsel. See
generally Doc. 1 at 16-18. Although in his Pre-Sentence Report Rose reported that he has been
diagnosed with “depression and mild schizophrenia,” see Crim. Doc. 1877-1 at 32, he presents
no medical documentation to support his assertion. Again, the mere fact of a mental health
diagnosis does not render a defendant incompetent to stand trial. See United States v. Garcia,
674 F. App’x 351, 353 (5th Cir. 2016) (citing United States v. Mitchell, 709 F.3d 436, 439-41
(5th Cir. 2013). Thus, Rose’s claims that counsel provided ineffective assistance at the pre-trial
and sentencing stage in this regard, are without merit. See Strickland, 466 U.S. at 687; Miller,
420 F.3d at 364.
Rose additionally asserts that Attorney Anderson provided ineffective assistance at the
pre-trial stage by showing a “lack of interest in defending [Rose],” and by failing to obtain
copies of police car videos and the original video of his confession. Doc. 1 at 20-21. Rose
asserts that the videos would demonstrate that the police illegally stopped him prior to his
arrest, and that his request for an attorney was ignored prior to his confession. He argues that

8

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 9 of 12 PagelD 75

Attorney Anderson therefore provided ineffective assistance for not pursuing this strategy. A
review of the record demonstrates that this argument must fail.
During a pre-trial hearing, Anderson stated:
There’s only one or two motions that need to be filed in his case to suppress
the evidence, but they are not easy motions. ... I have been thoroughly
studying the evidence in this case to prepare the motions for trial, which will
be submitted within a week or so, in time for hearing pretrial, and the trial
should not take that long.
Crim. Doc. 2542 at 7. However, at the same hearing, Rose requested, and was granted, the
right to represent himself at trial. See id. at 21-22. And once Rose began representing himself,
he had the ability to request this evidence, but failed to do so. Furthermore, while represented
by Attorney McCarty, Rose was allowed to view his video-taped confession and other evidence
in possession of the Government. Crim. Doc. 2542 at 8. He was again given access to the
evidence once he began representing himself. See Crim. Doc. 2543 at 6-9. Accordingly, Rose
has failed to demonstrate either deficient performance or prejudice as to Attorney Anderson.
See Strickland, 466 U.S. at 687.
To the extent that Rose contends Attorney Anderson provided ineffective assistance
once the Court appointed him as standby counsel, this argument is unavailing. Rose had no
right to standby counsel; therefore, he is not entitled to relief for ineffective assistance of
standby counsel. “[WJithout a constitutional right to standby counsel, a defendant is not entitled
to relief for the ineffectiveness of standby counsel.” United States v. Oliver, 630 F.3d 397, 413414 (5th Cir. 2011) (quoting United States v. Morrison, 153 F.3d 34, 55 (2nd Cir. 1998); See
also United States v. Mikolajczyk, 137 F.3d 237, 246 (5th Cir. 1998) (“[A] defendant’s
statutory right to choose pro se or attorney representation is ‘disjunctive’; a defendant has a
right to one or the other, but not a combination of the two.”).

9

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 10 of 12 PagelD 76

B. Due Process Claim
Relatedly, Rose asserts that his due process rights were violated “when he was allowed
to proceed under the influence of heavy psychiatric medication during pretrial, trial and
sentencing” and that his “competency was not addressed during any portion of the
proceedings.” Doc. 1 at 18.
“A criminal defendant may not be tried unless he is competent, and he may not waive
his right to counsel or plead guilty unless he does so ‘competently and intelligently’.” Godinez
v. Moran, 509 U.S. 389, 396 (1993) (citations omitted). A defendant is competent to stand trial
when he or she has “sufficient present ability to consult with his [or her] lawyer with a
reasonable degree of rational understanding” and has “a rational as well as factual
understanding of the proceedings.” Dusky v. United States, 362 U.S. 402, 402 (1960) (per
curiam). The same standard applies when determining whether a defendant is competent to
waive his right to counsel. Godinez, 509 U.S. at 396-98; Indiana v. Edwards, 554 U.S. 164,
172-73 (2008). “The focus of a competency inquiry is the defendant’s mental capacity; the
question is whether he has the ability to understand the proceedings.” Godinez, 509 U.S. at 401
n. 12. Under 18 U.S.C. § 4241(a), a district court must sua sponte conduct a competency
hearing if:
there is reasonable cause to believe that the defendant may presently be
suffering from a mental disease or defect rendering him mentally incompetent
to the extent that he is unable to understand the nature and consequences of
the proceedings against him or to assist properly in his defense.
Furthermore, “in determining whether the court should order a § 4241(a) hearing, the
court must consider three factors: (1) the existence of a history of irrational behavior, (2) the

10

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 11 of 12 PagelD 77

defendant’s demeanor at trial, and (3) prior medical opinion on competency. See United States
v. Messervey, 317 F.3d 457, 463 (5th Cir. 2002).
Here, Rose offers no record evidence to demonstrate the Court was or should have been
aware of any prior irrational behavior. Rose states that at his “intake interview the day of his
arrest,” he revealed that he “hears voices,” “battles depression,” and “was in need of his
medication.” Doc. 1 at 18. However, Rose was arrested on October 15, 2014. See Crim. Doc.
entry for 10/15/2014. This was almost one year prior to the start of Rose’s trial on September
14, 2015. See Crim. Doc. 1160. Rose also offers no evidence to demonstrate that he made the
Court aware of any history of irrational behavior or medical opinion on his competency, nor
does he cite to any questionable demeanor at trial. Rose simply states that “no one cared if [he]
was hearing voices, or his mental state.” Doc. 1 at 18. Thus, this claim lacks foundation and
must fail.
IV. CONCLUSION
For the foregoing reasons, Rose’s motion to vacate, set aside, or correct sentence
under 28 U.S.C. § 2255 should be DENIED, and this case be DISMISSED WITH
PREJUDICE.
SO RECOMMENDED on March 19, 2019.

\

RENEE HARRIS TOLIVER
UNKTED/STATES MAGISTRATE JUDGE

11

Case 3:18-cv-00685-B-BK Document 11 Filed 03/19/19

Page 12 of 12 PagelD 78

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation will be served on all parties in the
manner provided by law. Any party who objects to any part of this report and
recommendation must file specific written objections within 14 days after being
served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. CIV. P. 72(b). To be
specific, an objection must identify the finding or recommendation to which
objection is made, state the basis for the objection, and indicate the place in the
magistrate judge’s report and recommendation where the disputed determination is
found. An objection that merely incorporates by reference or refers to the briefing
before the magistrate judge is not specific. Failure to file specific written objections
will bar the aggrieved party from appealing the factual findings and legal
conclusions of the magistrate judge that are accepted or adopted by the district
court, except upon grounds of plain error. See Douglass v. United Services
Automobile Ass’n, 79 F.3d 1415,1417 (5th Cir. 1996), modified by statute on other
grounds, 28 U.S.C. § 636(b)(1) (extending the time to file objections to 14 days).

12

Case: 19-10882

Document: 00515623181

Page: 1

Date Filed: 11/02/2020

38nitet> States: Court of appeals
for tlje Jftftf) Circuit
No. 19-10882

United States of America
Plaintiff—Appellee,
versus
Casey Rose,
Defendant—Appellant.

Appeal from the United States District Court for
the Northern District of Texas
USDC No. 3:18-CV-685

ON PETITION FOR REHEARING
Before Jones, Stewart, and Costa, Circuit Judges.
Per Curiam:
IT IS ORDERED that appellant’s petition for rehearing is DENIED.

